DEPARTMENT OF HOMELAND SECURITY

       Office of Inspector General


        Major Management Challenges 

   Facing the Department of Homeland Security





        (Ex




        (Excerpts from the FY 2006 DHS
      Performance and Accountability Report)




 OIG-07-12                December 2006
                                                               Office of Inspector General

                                                               U.S. Department of Homeland Security
                                                               Washington, DC 20528




                                  December 4, 2006

                                       Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports prepared as
part of our oversight responsibilities to promote economy, efficiency, and effectiveness within
the department.

The attached report presents the major management challenges facing the Department of
Homeland Security and was included in DHS’ FY 2006 Performance and Accountability Report.
As required by the Reports Consolidation Act of 2000, we update our assessment of management
challenges annually.

It is our hope that this report will result in more effective, efficient, and economical operations.
We express our appreciation to all of those who contributed to the preparation of this report.




                                       Richard L. Skinner             

                                       Inspector General          

                                                              Office of Inspector General

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 20528




                                    December 4, 2006



           MAJOR MANAGEMENT CHALLENGES FACING

           THE DEPARTMENT OF HOMELAND SECURITY


Since its inception in March 2003, the Department of Homeland Security (DHS) has
worked to accomplish the largest reorganization of the federal government in more than
half a century. This task, creating the third largest Cabinet agency with the missions of
protecting the country against another terrorist attack, responding to threats and hazards,
ensuring safe and secure borders, welcoming lawful immigrants and visitors, and
promoting the free-flow of commerce has presented many challenges to its managers and
employees. While DHS has made progress, it still has much to do to establish a cohesive,
efficient, and effective organization.

The major management challenges we identify facing DHS, including department-wide
and operational challenges, are a major factor in setting our priorities for audits,
inspections, and evaluations of DHS programs and operations. As required by the
Reports Consolidation Act of 2000, we update our assessment of management challenges
annually. We have made recommendations in many, but not all, of these areas as a result
of our reviews and audits of departmental operations. Where applicable, we have
footnoted specific reports that require DHS’s action.


CATASTROPHIC DISASTER RESPONSE AND RECOVERY

DHS’s failures after Hurricane Katrina ravaged the Gulf Coast on August 29, 2005,
illuminated longstanding problems within the Federal Emergency Management Agency
(FEMA). Many of the problems have existed for years, but never received the attention
needed to fix them because FEMA had never before dealt with such a devastating
disaster. Some estimate that the total federal response and recovery cost could reach
$200 billion or more. FEMA has shortcomings in managing assistance and housing for
evacuees, information systems, contracts and grants, and implementing the National


Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report        1
Flood Insurance Program.1 We are planning additional work to assess FEMA’s readiness
to respond to future catastrophic disasters.

DHS and FEMA have learned many lessons from Katrina and have taken steps to
improve their ability to respond to catastrophic disasters. For example, DHS and its
federal partners revised the Catastrophic Incident Supplement to the National Response
Plan to establish a better-coordinated strategy for a federal response to a catastrophic
disaster. FEMA is working to improve its ability to house large numbers of evacuees and
its logistics capability to supply commodities to disaster victims more quickly. But, it
must implement catastrophic housing and logistics plans that are tested and exercised.

Possibly the largest problem FEMA faced in the aftermath of Katrina was assisting,
sheltering, and housing evacuees. Never before had so many people been displaced for
an extended period of time. FEMA’s existing programs were inadequate to handle the
problem, and FEMA’s efforts to house victims in travel trailers and mobile homes were
not well managed. Also, the number of victims overwhelmed FEMA’s system for
verifying their identities and providing individual assistance payments. The result of
FEMA’s efforts to speed up the process resulted in widespread fraud. In February 2006,
we reported on weaknesses in FEMA’s registration intake controls and recommended
actions to improve them.2 FEMA has improved its intake process and the system’s
capacity, but the changes are untested and may not be sufficient to address existing
deficiencies. We are reviewing these problems and will help FEMA find solutions so it
will be better prepared for the next catastrophic disaster or even multiple catastrophic
disasters.

We have focused substantial work on FEMA contracting and have identified numerous
problems. Our work indicates that FEMA was not well prepared to provide the kind of
acquisition support needed for a catastrophic disaster. FEMA’s overall response efforts
suffered from (1) inadequate acquisition planning and preparation for many crucial needs,
(2) lack of clearly communicated acquisition responsibilities between FEMA, other
federal agencies, and state and local governments, and (3) insufficient numbers of
acquisition personnel to manage and oversee contracts. In February 2006, we reported
that FEMA purchased mobile homes without having a plan for how the homes would be
used. As a result, FEMA now has thousands of surplus mobile homes.3 In
September 2006, we reported that FEMA spent $7 million renovating a facility to house
evacuees. Because there was inadequate planning, the facility was never needed. As a
result, the facility was underutilized.4 FEMA has already made improvements; such as
increasing the number of standby contracts in place and ready to be executed when
disaster strikes. Also, DHS created a Disaster Response/Recovery Internal Control

1
  DHS-OIG, Performance Review of FEMA’s Disaster Management Activities in Response to Hurricane

Katrina, OIG-06-32, March 2006. 

2
  DHS-OIG, Strengthening Registration Intake Controls, OIG GC-HQ-06-10.

3
  DHS-OIG, Mobile Homes and Modular Homes at Hope and Red River, OIG GC-HQ-06-12.

4
  DHS-OIG, Starship Facility Renovation Project, OIG GC-HQ-06-52.



Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report             2
Oversight Board to address many of the problems. We will soon conduct a review of
FEMA’s overall acquisition management structure to identify additional improvements
that FEMA can make to be prepared better for the next catastrophic disaster. We will
review organizational alignments and leadership, policies and procedures, FEMA’s
acquisition workforce, and its information management. We are also reviewing FEMA’s
system for accounting for property it has purchased for disasters.

Hurricane Katrina highlighted the need for data sharing among federal agencies
following a catastrophic disaster. We see a need for data sharing in three areas. Real-
time data exchange among agencies would help verify eligibility of applicants for disaster
assistance and simplify the application process for victims. Direct access to FEMA data
by law enforcement agencies would help identify and track convicted sex offenders and
suspected felons, and help locate missing children. Computer data matching would help
to prevent duplicative payments and identify fraud. FEMA is moving in the right
directions on these issues. For example, FEMA has granted direct access to its data to the
Hurricane Katrina Fraud Task Force for the purpose of investigating fraud. However,
progress is slow and much remains to be done. FEMA and the federal community are not
ready to meet the data sharing requirements of the next catastrophic disaster.

FEMA issued approximately 2,700 mission assignments totaling about $8.7 billion to
federal agencies to help with response to Hurricane Katrina. FEMA historically has had
significant problems issuing, tracking, monitoring, and closing mission assignments.
FEMA guidance on the missions is often vague, and agencies’ accounting practices vary
significantly, causing problems with reconciling agencies’ records to FEMA records.
FEMA has developed a number of new pre-defined mission assignments to streamline
some of the initial recurring response activities. In addition, FEMA's Disaster Finance
Center is working to find a consensus among other Federal agencies on appropriate
supporting documentation for billings. We are conducting a review of mission
assignments to DHS agencies and other Inspectors General are reviewing mission
assignments to their respective agencies.

We are also planning a review of FEMA’s National Flood Insurance Program (NFIP).
Floods are among the most frequent and costly of all natural disasters and have great
impact in terms of economic and human losses each year. FEMA is now faced with
NFIP issues ranging from outdated flood maps to the question of whether damages are
the result of flooding from storm surge or hurricane winds. Many NFIP related questions
need to be addressed before the next catastrophic flood.


ACQUISITION AND CONTRACT MANAGEMENT

DHS must have an acquisition management infrastructure in place that allows it to
oversee effectively the complex and large dollar procurements critically important to
achieving DHS’s mission. Acquisition management is not just awarding a contract, but


Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report    3
an entire process that begins with identifying a mission need and developing a strategy to
fulfill that need through a thoughtful, balanced approach that considers cost, schedule,
and performance.

We identified significant risks and vulnerabilities that might threaten the integrity of
those operations. In general, DHS needs more comprehensive acquisition guidance and
oversight.5 Other vulnerabilities fall into three general categories: adherence to ethical
conduct, program management, and procurement management.

• 	 In the area of ethical conduct, senior program managers and procurement officials
    would benefit from expanded training and guidance on their procurement ethics
    responsibilities. DHS’s many partnership arrangements with the private sector
    suggest that the minimal initial and annual government ethics training DHS requires
    may be insufficient. The Office of the Chief Procurement Officer (OCPO) is working
    with DHS ethics officials to develop effective online training for procurement
    executives and operational specialists. This training will expand on the initial
    training and provide relevant ethics scenarios. The training will also provide a
    mechanism for procurement executives to request additional information and
    assistance as ethics issues arise. In addition, OCPO has piloted acquisition ethics
    training targeted towards senior management. This pilot has been presented to all
    heads of contracting activities and selected senior Immigration and Customs
    Enforcement (ICE) personnel.

• 	 Effective program management is essential to obtaining the right equipment and
    systems to accomplish the DHS mission. Complex and high dollar contracts require
    multiple program managers often with varying types of expertise. Several DHS
    procurements have encountered problems because contract technical and performance
    requirements were not well defined. DHS needs more certified program managers;
    comprehensive department-wide standards for program management; a strengthened
    investment review board process to provide greater independent analysis and review;
    better defined technical requirements; and more balance among schedule, cost, and
    performance when expediting contracts. OCPO recently established a program
    management advisory board, established standards for certifying program managers,
    and promoted program management training opportunities.

• 	 In their transition into DHS, seven agencies retained their procurement functions,
    including the United States Coast Guard (USCG), FEMA, and the Transportation
    Security Administration (TSA). The expertise and capability of the seven
    procurement offices mirrors the expertise and capability they had before creation of
    DHS, with staff size that ranged from 21 to 346 procurement personnel. DHS
    established an eighth acquisition office, the Office of Procurement Operations (OPO),

5
 DHS-OIG, Department of Homeland Security’s Procurement and Program Management Operations,
OIG-05-53, September 2005.


Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report       4
    under the direct supervision of the Office of the Chief Procurement Officer (OCPO),
    to service the other DHS components and manage department-wide procurements.
    Many DHS procurement offices reported that their lack of staffing prevents proper
    procurement planning and severely limits their ability to monitor contractor
    performance and conduct effective contract administration. The FY 2007 DHS
    Appropriations Act provides over 400 additional contract specialist positions to
    alleviate part of the shortfall. Moreover, DHS is planning a contracting fellows
    program with up to 100 entry-level positions to begin in FY 2008. OCPO is assisting
    program offices with acquisition planning, including templates and one-on-one
    assistance.

In addition to awarding contracts, OCPO helps DHS components adhere to standards of
conduct and federal acquisition regulations in awarding and administering contracts.
This oversight role involves developing department-wide policies and procedures and
enforcing those policies and procedures. Both our office and GAO have reported that the
OCPO needs more staff and authority to carry out its general oversight responsibilities.
GAO recommended that DHS provide OCPO with sufficient resources and enforcement
authority to enable effective department-wide oversight of acquisition policies and
procedures. We made a similar recommendation.

During FY 2006, the Under Secretary for Management established policies for
acquisition oversight and directed each of the nine heads of contracting activities to
measure and manage their acquisition organizations.6 Also, the number of oversight
specialists in the Acquisition Oversight Division of OCPO is authorized to expand to nine
during FY 2007. OCPO is working to hire the additional staff. OCPO has undertaken an
outreach program to involve DHS component staff to manage effectively and assist in
acquisition oversight.

We have conducted audits and reviews of individual DHS contracts, such as TSA’s
screener recruiting and TSA’s information technology services. Common themes and
risks emerged from these audits, primarily the dominant influence of expediency, poorly
defined requirements, and inadequate oversight that contributed to ineffective or
inefficient results and increased costs.

The urgency and complexity of DHS’s mission will continue to demand rapid pursuit of
major investment programs. While DHS continues to build its acquisition management
capabilities in the component agencies and on the department-wide level, the business of
DHS goes on and major procurements continue to move. On November 2, 2005, DHS
announced a multi-year strategy to secure America’s borders and reduce illegal
immigration, called the Secure Border Initiative (SBI). The SBI procurement presents a
considerable acquisition risk because of its size and scope. We see risks and
vulnerabilities similar to those identified in previous OIG audits and reviews.
6
 DHS, Acquisition Oversight Program, Management Directive System MD number 0784,
December 19, 2005.


Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report    5
USCG has also encountered a number of challenges in executing its Deepwater
Acquisition program despite the expenditure of more than $3 billion over four years.
This is particularly true within the Deepwater surface and air domains. For example, the
110-foot patrol boat conversion project was curtailed at eight cutters due to design,
construction, performance, and cost concerns. Further, strict operational restrictions have
been imposed on these cutters until additional structural analyses can be completed. In
response to these challenges, USCG accelerated plans to design, construct, and deploy
the composite Fast Response Cutter (FRC) by more than 10 years as a replacement for
the 110-foot patrol boat. However, an independent analysis confirmed that the FRC
design is outside patrol boat design parameters, i.e., too heavy, too overpowered, and not
streamlined enough to reduce resistance. These concerns led to USCG’s April 2006
decision to suspend work on the FRC until these issues could be resolved or an
alternative commercial off-the-shelf design identified. In the Deepwater air domain, the
HH-65C helicopter7 and unmanned aerial vehicle (VUAV) acquisitions have encountered
schedule delays and cost increases. These Deepwater design, construction, performance,
scheduling, and cost issues are expected to present significant challenges to USCG’s
Deepwater Program during FY 2007.

Providing Accurate and Timely Procurement Reporting

In July 2006, we reported on the challenges that DHS faces in planning, monitoring, and
funding efforts to ensure the accurate and timely reporting of procurement actions to
interested stakeholders.8 The Executive Branch, the Congress, and the public rely upon
such procurement information to determine the level of effort related to specific projects
and also to identify the proportion of government contracts that are awarded to small
businesses. Currently, however, DHS has several different contract writing systems that
do not automatically interface with its Federal Procurement Data Systems - Next
Generation (FPDS-NG) – a government-wide procurement reporting system accessible
by the public. Some of the systems may need to be replaced. Additionally, not all DHS
procurements are entered into FPDS-NG. For example, grants, mission assignments, and
purchase card data may not be entered into FPDS-NG, resulting in an understatement of
DHS’s procurement activities.

DHS has undertaken a number of initiatives to improve its reporting on procurement
actions. These initiatives include interfacing the various DHS contract-writing systems
with FPDS-NG and ensuring that all procurement information is entered into FPDS-NG
immediately following contract award. Such initiatives will not only enable real-time
reporting of DHS procurement actions; they also will allow DHS to rely on General

7
  DHS-OIG, Re-Engining of the HH-65 Helicopter, United States Coast Guard, OIG-04-50, September 

2004. 

8
  DHS-OIG, DHS’ Management of Automated Procurement Systems Needs Improvement, OIG-06-46,

July 2006. 



Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report              6
Services Administration databases to help eliminate contract awards to ineligible
vendors. OCPO has worked with each of the DHS components to improve the accuracy,
completeness, and timeliness of FPDS-NG data entry. DHS’s planned deployment of a
single contract writing software system should reduce duplicate data entry for each
contract action. DHS is developing routine reporting for non-FPDS-NG instruments.


GRANTS MANAGEMENT

Managing the multitude of grant programs within DHS poses a significant challenge.
Further, the grant programs of other federal agencies that assist states and local
governments in improving their abilities to prepare for, respond to, and recover from acts
of terrorism or natural disasters compound this challenge. Congress continues to
authorize and appropriate funding for individual grant programs within and outside of
DHS for similar, if not identical, purposes. In total, DHS manages over 80 disaster and
non-disaster grant programs. For disaster response and recovery efforts, we have
identified 36 federal assistance programs that have the potential for duplicating DHS
grant programs. DHS must do more to coordinate and manage grants that are stove-piped
for specific, but often related purposes to ensure that they are contributing to our highest
national preparedness and disaster recovery goals, rather than duplicating one another and
being wasted on low-priority capabilities.

Disaster grant awards will be substantially larger than usual with the over $60 billion that
Congress appropriated in late FY 2005 for disaster response and recovery efforts related
to Hurricanes Katrina, Wilma, and Rita. In the Gulf Coast states affected by these
hurricanes, numerous federal grants from different agencies and components of DHS are
going to state and local governments, private organizations, and individuals for response
and recovery from the recent hurricanes as well as for the next disaster or terrorist attack.
We are currently reviewing disaster grant activities throughout the Gulf Coast and will
continue to give special emphasis to Gulf Coast disaster response and recovery grant
spending.

In FY 2005, DHS expected to award approximately $4.6 billion of non-disaster grants.
We are reviewing individual state’s management of first responder grants and the
effectiveness of DHS’s system for collecting data on state and local governments’ risk,
vulnerability, and needs assessments. Our audits have reported on the states’ inability to
manage effectively and monitor these funds and to demonstrate and measure
improvements in domestic security. Our reports also pointed out the need for DHS to
monitor the preparedness of state and local governments, grant expenditures, and grantee
adherence to the financial terms and conditions of the awards.9

9
 DHS-OIG, The State of Indiana’s Management of State Homeland Security Grants Awarded During
Fiscal Years 2002 and 2003, OIG-06-19, December 2005; DHS-OIG, The Commonwealth of Virginia’s
Management of State Homeland Security Grants Awarded During Fiscal Years 2002 and 2003, OIG-06-45,
July 2006.


Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report          7
DHS faces a challenge in addressing its responsibility to become an efficient and
effective grants manager. For example, while the Office of Grants and Training is tasked
with financial and programmatic monitoring and oversight for first responder grants, the
Office of Justice Programs with the Department of Justice does the accounting for these
grants. Given the billions of dollars appropriated annually for disaster and non-disaster
grant programs, DHS needs to ensure that grants management internal controls are in
place and adhered to, and that grants are sufficiently monitored to achieve successful
outcomes. DHS needs to ensure that, to the maximum extent possible, disaster and
homeland security assistance go to those states, local governments, private organizations,
or individuals eligible to receive such assistance and that grantees adhere to the terms and
conditions of the grant awards. DHS needs to continue refining its risk-based approach
to awarding first responder grants to ensure that areas and assets that represent the
greatest vulnerability to the public are as secure as possible. It must incorporate sound
risk management principles and methodologies to successfully prepare for, respond to,
recover from, and mitigate acts of terrorism and natural disasters. DHS is planning a
study to provide a single grants management system for all non-disaster related grants.


FINANCIAL MANAGEMENT

Financial management has been a major challenge for DHS since its creation in 2003.
This year, DHS was again unable to obtain an opinion on its financial statements, and
numerous material internal control weaknesses continued to be reported. KPMG, LLP,
under contract with the OIG, issued a disclaimer of opinion on DHS’s 2003, 2004, and
2005 financial statements.

DHS’s material internal control weaknesses ranged from financial management oversight
and reporting at the department level to controls surrounding the recording of individual
account balances within DHS bureaus. These control weaknesses, due to their
materiality, are impediments to obtaining a clean opinion and positive assurance over
internal control at the department level.10 Achieving these departmental goals is highly
dependent upon internal control improvements at USCG, ICE, TSA, and the Office of the
Chief Financial Officer (OCFO). Many of the Department’s material weaknesses, to
varying degrees, are attributable to USCG.

To move forward, DHS must develop a comprehensive financial management strategy
that addresses organizational resources and capabilities, inconsistent and flawed business
processes, and unreliable financial systems. An initial step in this process is to prepare
well-developed and comprehensive corrective action plans to address known internal
control weaknesses.


10
     DHS-OIG, Independent Auditors' Report on DHS' FY 2005 Statements, OIG-06-09, November 2005.


Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report             8
Over the past several months, we initiated a series of performance audits to assess the
effectiveness of DHS’s corrective action plans to address internal control weaknesses.
Our objective in conducting these performance audits was to assess the thoroughness and
completeness of both the overall corrective action plan process and individual plans
developed to address specific weaknesses. The performance audits are intended to
provide ongoing feedback to DHS as it is developing and implementing corrective action
plans.

During FY 2006, we anticipated progress in addressing internal control deficiencies.
DHS identified four areas where internal control weaknesses exist for improvement
during the year. However, in our corrective action plan audits, we reported that a
coordinated, department-wide effort to develop corrective action plans did not begin until
the third quarter of 2006; and DHS is not expected to have a department-wide plan in
place until the first quarter of FY 2007. At the component level, we identified well-
developed corrective action plans at ICE, but little progress at USCG. During 2006, ICE
began its corrective action plan process early and is showing signs of internal control
improvements this year. Our audit reports provide recommendations for improvement at
the department-wide and component levels.


INFORMATION TECHNOLOGY MANAGEMENT

Integrating the information technology (IT) systems, networks, and capabilities of the
various legacy agencies to form a single infrastructure for effective communications and
information exchange remains one of DHS’s biggest challenges. There are multiple
aspects to achieving such an IT infrastructure. For example, creating an adequate
capability for relocating mission critical information systems to an alternate disaster
recovery site in the event of extended service disruptions or emergency is one concern.
Implementing a department-wide program that ensures effective information security
controls and addresses IT risks and vulnerabilities is just as key. Further, improved IT
planning, requirements identification, and analysis will be essential not only to acquire
and implement the systems and other technologies needed to streamline operations within
individual DHS component organizations, but also to support effective homeland security
information sharing with state and local governments, the private sector, and the public.
Without sound department-wide planning, coordination, and direction, the potential for
integrating advanced data mining functionality and capabilities to address homeland
security issues also will remain untapped.

Department-wide IT Infrastructure

Creating an adequate disaster recovery capability for DHS’s information systems is a
major concern. DHS’s IT infrastructure remains a collection of legacy networks,
systems, and data centers. Several elements of this IT infrastructure do not have the
ability to relocate to an alternate site that can be used if their primary facility suffers an


Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report           9
extended outage or becomes inaccessible. This inability to restore the functionality of
DHS’s critical IT systems following a service disruption or disaster could negatively
affect accomplishment of a number of essential DHS missions, including passenger
screening, grants processing, and controlling the flow of goods across U.S. borders.

However, due to a lack of sufficient funding and an operational program to support an
enterprise-wide disaster recovery solution, DHS has been hindered in its efforts to
provide an alternate processing facility. Specifically, DHS received a combined
$85 million in FY 2005 and FY 2006 for the development, operations, and maintenance
of the National Center for Critical Information Processing and Storage (NCCIPS). The
NCCIPS is to provide hosting of departmental applications, network connectivity, and
critical data storage under the direction of DHS’s Chief Information Officer (CIO).
Additionally, DHS has submitted a request for information for a second data center to
supplement the NCCIPS. DHS listed the second data center as a large, redundant, secure,
scalable capability that will provide DHS with sufficient backup, disaster recovery, and
continuity of operations in an emergency. Ensuring that funds provided are spent
effectively to achieve the desired disaster recovery capability in a timely fashion will
involve significant resources, oversight, and senior management attention.

Similarly, upgrading the DHS data communications infrastructure and consolidating the
various organizations that provide data communications support are major undertakings
for DHS. Currently, DHS is in the process of addressing these communications
requirements, which are critical for exchanging mission-critical information both within
DHS and with outside stakeholders. Specifically, DHS is implementing a Multi-Protocol
Label Switching (MPLS) technology on top of its asynchronous transfer mode and Frame
Relay circuits. DHS hopes this MPLS infrastructure will allow the elimination of
redundant firewalls and the replacement of hardware encryption devices with Internet
Protocol Security encryption. At the same time, DHS is undertaking an ambitious effort
to combine its various internal Security Operations Centers and Network Operations
Centers, which help ensure that data communication within DHS, and with external
stakeholders, is secure and functional. Coordinating these related communications
upgrade efforts will require significant resources and oversight. Ensuring that DHS data
communications activities remain effective and secure during the upgrade and transition
also is a major concern.

Security of IT Infrastructure

The security of IT infrastructure is a major management challenge. As required by the
Federal Information Security Management Act (FISMA), the CIO must develop and
implement a department-wide information security program that ensures the effectiveness
of security controls over information resources, including its intelligence systems, and
addresses the risks and vulnerabilities facing DHS’s IT systems.




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report    10
As we reported in September 2006, based upon its annual FISMA evaluation, excluding
its intelligence systems, DHS achieved a significant milestone that will continue to help
DHS move toward managing a successful information security program.11 DHS
implemented a department-wide remediation plan to certify and accredit all operational
systems by the end of FY 2006. Completion of this task will eliminate a hurdle that
prevented DHS from strengthening its security program. In addition, some of the issues
that we identified in our FY 2005 FISMA report to assist DHS and its components in the
implementation of its information assurance program have been addressed, such as
developing a process to maintain a comprehensive inventory.
In addition to our FISMA evaluations, during the past year we conducted information
security audits of DHS networks, databases, laptops, and Radio Frequency Identification
systems. We also reviewed major programs, such as the Transportation Workers
Identification Credential and U.S. Visitor and Immigrant Status Indicator Technology
(US-VISIT). Based on the results of these audits, as well as our FISMA evaluation, and
despite several major improvements in DHS’s information security program, DHS
organizational components, through their Information Systems Security Managers, have
not completely aligned their respective information security programs with DHS’s overall
policies, procedures, and practices. For example:

     • 	 All operational systems have not been adequately certified and accredited.

     • 	 All components’ information security weaknesses are not included in a Plan of
         Action and Milestones report.

     • 	 Data in the enterprise management tool, Trusted Agent FISMA, is not complete or
         current.

     • 	 System contingency plans have not been tested for all systems.

     • 	 Standard configurations have not been fully implemented.

Further, while DHS has issued substantial guidance designed to create and maintain
secure systems, there exist areas where agency-wide information security procedures
require strengthening: (1) certification and accreditation; (2) vulnerability testing and
remediation; (3) contingency plan testing; (4) incident detection, analysis, and reporting;
(5) security configurations; and (6) specialized security training. To address these issues,
the CIO must identify ways to improve the review process and increase the accountability
of DHS component organizations.

Additionally, DHS is required to protect its intelligence systems. We reported that DHS
should establish comprehensive management authority over the information security

11
  DHS-OIG, Evaluation of DHS’ Information Security Program for Fiscal Year 2006, OIG-06-62,
September 2006.


Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report        11
program for DHS’s intelligence systems. DHS must also ensure the confidentiality,
integrity, and availability of vital intelligence information.

DHS Component IT Management

IT management at the subcomponent-level remains a major challenge, as demonstrated
by our audits and subsequent reports on the IT programs and initiatives of selected DHS
directorates and organizations. We repeatedly identified problems with outdated or
stove-piped systems, at times supporting inefficient business processes. Planning to
modernize IT was unfocused, often with inadequate requirements identification, analysis,
and testing to support acquisition and deployment of the systems and other technologies
needed to improve operations. Insufficient training and guidance to support IT users
were typical.

For example, in September 2005, we reported that U.S. Citizenship and Immigration
Services (USCIS) had not recognized the potential benefits of streamlining processes and
leveraging IT to help meet its backlog reduction goals.12 USCIS processes were
primarily manual, paper-based, and duplicative, resulting in an ineffective use of
resources to ship, store, and track immigration files. Adjudicators used multiple and non
integrated IT systems to perform their jobs, which reduced productivity and data
integrity. IT software and hardware systems also were outdated and not well configured
to meet user needs. Further, despite federal requirements, USCIS had not taken a focused
approach to modernizing processes and systems to accomplish its citizenship and
immigration services mission. We conducted a follow-up review of USCIS efforts to
address our earlier report recommendations. While USCIS has made some progress by
placing priority on business transformation, taking steps to centralize authority for IT
personnel, initiating business process reengineering activities, and upgrading desktops
and servers at key field locations, USCIS would benefit from improvements in
centralizing IT operations and refining IT management practices. To be successful,
USCIS also must ensure that its transformation strategy is clearly defined and managed.

Similarly, we reported in September 2005 that EP&R did not effectively manage IT to
support incident response and recovery.13 Specifically, although EP&R has made
progress in IT planning, including development of FEMA’s first IT strategic plan, the IT
plan aligns with the agency’s outdated strategic plan and does not reflect integration into
DHS. As such, the IT plan provides no assurance that FEMA’s systems will support
accomplishment of department-wide missions and goals. Further, even though FEMA

12
   DHS-OIG, USCIS Faces Challenges in Modernizing Information Technology, OIG-05-41,
September 2005.
13
   DHS-OIG, Emergency Preparedness and Response Could Better Integrate Information Technology with
Incident Response and Recovery, OIG-05-36, September 2005. On October 1, 2005, EP&R was
dismantled, with preparedness functions moved to the new Preparedness Directorate. FEMA, originally
part of EP&R, became a separate DHS entity that reports directly to the Secretary and retained
responsibility for consequence management after catastrophes, including response and recovery activities.


Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report                 12
staff provided significant service during the 2004 hurricanes, additional guidance and
training are needed to ensure that IT systems users have the knowledge and information
required to perform their jobs in future response and recovery efforts. Moreover,
FEMA’s systems are not integrated and therefore do not effectively support information
exchange among emergency managers. Inadequate IT requirements definition limits the
agency’s ability to identify alternatives to existing systems while insufficient test
facilities hinder comprehensive evaluation of new systems prior to deployment. Our
follow-up assessment of FEMA’s efforts to upgrade its principal disaster management
system shows that although the agency has made short-term progress in addressing
problems in each of these areas, more remains to be done to address long-term planning
and systems integration needs.

Our reviews of major IT programs and initiatives of various components’ management
indicate similar problems. For example, in September 2005 we reported that FEMA
could benefit from improvements to its six-year, $1.5 billion flood map modernization
program to digitize flood maps used to identify flood zones and determine insurance
requirements.14 Although FEMA is making progress in the program, its Multi-Year
Flood Hazard Plan does not effectively address user and funding needs. Current policies,
agreements, and information sharing mechanisms do not effectively support coordination
and cooperation among mapping stakeholders. Further, FEMA has made limited
progress in developing a web-based mapping system due to unclear contractor
expectations, underestimation of program scope and complexity, and poorly defined
requirements, resulting in significant system acquisition delays and cost overruns.
FEMA can strengthen its flood map modernization program by reviewing and revising its
mapping plan, enhancing program guidance, increasing contractor oversight, and
improving coordination with stakeholders. Clearly defining requirements and contractor
expectations and maintaining standard methodologies for mapping system development
also would help ensure program success.

In August 2006 we reported on improvements that USCG could make in its efforts to
design and implement command, control, communications, computers, intelligence,
surveillance, and reconnaissance (C4ISR) systems as part of its estimated $20 billion
Integrated Deepwater System (Deepwater) program.15 Although USCG is making
progress in the program, its limited influence over contractor decisions toward meeting
Deepwater IT requirements and a lack of discipline in requirements change management
processes provide little assurance that the requirements remain up-to-date or are effective
in meeting program goals. In addition, certification and accreditation of Deepwater
C4ISR equipment has been difficult to achieve and the contractor has not followed
established IT testing procedures consistently, placing systems security and C4ISR
operations at risk. Further, due to limited oversight, as well as unclear contract
requirements, the agency cannot ensure that the contractor is making the best decisions

14
 DHS-OIG, Challenges in FEMA’s Flood Map Modernization Program, OIG-05-44, September 2005.
15
 DHS-OIG, Improvements Needed in the U.S. Coast Guard’s Acquisition and Implementation of
Deepwater Information Technology Systems, OIG-06-55, August 2006.


Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report       13
toward accomplishing Deepwater IT goals. Insufficient C4ISR funding has restricted
accomplishing the “system-of-systems” objectives that are fundamental to ensuring
interoperability of Deepwater assets, such as ships and aircraft. Meeting the training and
IT support needs of Deepwater C4ISR users also is key.

Information Sharing

The Homeland Security Act of 200216 makes coordination of homeland security
communication with state and local government authorities, the private sector, and the
public a key DHS responsibility. However, due to time pressures, DHS did not complete
a number of the steps essential to effective planning and implementation of the Homeland
Security Information Network (HSIN)—the sensitive, but unclassified, system it
instituted to help carry out this mission. As such, effective sharing of the counter
terrorist and emergency management information critical to ensuring homeland security
remains an ongoing challenge for DHS.

As we reported in June 2006, DHS did not clearly define HSIN’s relationship to existing
collaboration systems and also did not obtain and address requirements from all HSIN
user communities in developing the system.17 DHS did not adequately evaluate each of
its three major HSIN releases prior to their implementation. Further, DHS has not
provided adequate user guidance, including clear information sharing processes, training,
and reference materials. Without establishing a baseline and developing specific
performance measures, DHS has no effective way to track or assess information sharing
using HSIN. As a result of these system planning and implementation issues, HSIN is
not meeting user needs and supporting state and local sharing of and situational
awareness and counter-terrorist information. Therefore, potential users do not regularly
use HSIN. Instead, they resort to pre-existing systems and telephone calls to share
information, perpetuating the ad hoc, stove-piped information-sharing environment that
HSIN was intended to correct. Resources, legislative constraints, privacy, and cultural
challenges – often beyond the control of HSIN program management – also pose
obstacles to HSIN’s success.

On a broader scale, DHS is challenged with incorporating data mining into its overall
strategy for sharing information to help detect and prevent terrorism. Data mining aids
agents, investigators, and analysts in the discovery of patterns and relationships from vast
quantities of data. The Homeland Security Act authorizes DHS to use data mining and
other tools to access, receive, and analyze information. Our August 2006 report on DHS
data mining activities identified various stove-piped activities that use limited data
mining features.18 For example, CBP performs matching to target high-risk cargo. The
U.S. Secret Service automates the evaluation of counterfeit documents. TSA collects

16
   P.L. 107-296.

17
   DHS-OIG, Homeland Security Information Network Could Support Information Sharing More 

Effectively, OIG-06-38, June 2006. 

18
   DHS-OIG, Survey of DHS Data Mining Activities, OIG-06-56, August 2006. 



Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report       14
tactical information on suspicious activities. ICE detects and links anomalies indicative
of criminal activity to discover relationships. However, without department-wide
planning, coordination, and direction, the potential for integrating advanced data mining
functionality and capabilities to address homeland security issues remains untapped.


INFRASTRUCTURE PROTECTION

DHS is responsible for coordinating the national effort to enhance protection of critical
infrastructure and key resources (CI/KR) of the United States. Specifically, DHS has
direct responsibility for leading, integrating, and coordinating efforts to protect the
chemical industry; commercial facilities; dams; emergency services; commercial nuclear
reactors, materials, and waste; information technology; telecommunications; postal and
shipping; transportation systems; and government facilities. The issuance of the National
Infrastructure Protection Plan (NIPP) in June 2006 marked an unprecedented
collaboration among federal, state, local, tribal, and private sector partners to establish the
coordinated approach that will be used to establish national priorities, goals, and
requirements for CI/KR protection so that federal funds and resources are applied in the
most effective manner to reduce vulnerability, deter threats, and minimize consequences
of attacks and other incidents. In addition, DHS has an oversight role in coordinating the
protection of CI/KR, where other federal agencies have the primary protection
responsibility. Those CI/KR include agriculture and food; the defense industrial base;
energy; public health and healthcare; national monuments and icons; banking and
finance; and water and water treatment systems.

The DHS FY 2007 Appropriations Act granted the Secretary of Homeland Security
authority to issue regulations that establish risk-based performance standards for security
of chemical facilities, and require vulnerability assessments and development and
implementation of site security plans. However, the chemical sector is just one segment
of an enormous and complex distribution of the nation’s CI/KR. Reliance on the private
sector as well as our federal partners to deter threats, mitigate vulnerabilities, or minimize
the consequences associated with a terrorist attack or other incident creates a void in the
assurance that all CI/KR are adequately protected. Combined with the uncertainty of the
terrorist threat and other manmade or natural disasters make the effective implementation
of protection efforts a great challenge.

To assist in overcoming this great challenge, the National Infrastructure Protection Plan
envisions a comprehensive, national inventory of assets, known as the National Asset
Database (NADB), to help carry out these responsibilities. A maturing NADB is
essential to the development of a comprehensive picture of the nation’s CI/KR as well as
management and resource allocation decision-making. As we reported in FY 2006, DHS
is improving the development and quality of the NADB. DHS is also strengthening its
relationships with other responsible federal departments. Standardizing vulnerability



Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report      15
assessment methodologies, such as the Risk Analysis and Management for Critical Asset
Protection tool, will also help the department better understand CI/KR.

We are currently reviewing the Department’s efforts to coordinate infrastructure
protection activity within the food and agriculture sector, as well as implement buffer
zone protection plans at critical infrastructure and key resource sites across the country.
We will continue to monitor and review how DHS uses the NADB to support its risk
management framework, how it coordinates infrastructure protection with other sectors,
and how its pursuit of basic vulnerability assessment standards can help develop
overarching departmental priorities.


BORDER SECURITY

One of DHS’s primary missions is to reduce America’s vulnerability to terrorism by
controlling the borders of the United States. This mission is shared by a number of
agencies within DHS and is dependent on the coordinated accomplishment of each
agency’s roles, as well as, joint efforts with other agencies.

During FY 2006, the White House and DHS announced a comprehensive multi-year plan
to secure the borders and reduce illegal immigration, Secure Border Initiative (SBI).
DHS created a program executive office within the policy directorate to oversee, plan,
and coordinate implementation of SBI across DHS. This systems approach should
address some of the previously reported challenges. For example, last year we reported
that CBP and ICE continue to experience difficulties in coordinating and integrating their
respective operations.19 More than two years after their creation, CBP and ICE have not
come together to form a seamless border enforcement program. Their operations have
significant interdependencies that have created conflict between CBP and ICE.
Jurisdictional, operational, and communication gaps exist between the two organizations
that must be addressed by DHS leadership. Another example is the integration of border
surveillance technologies. Previously, we reported that border surveillance cameras were
not integrated with ground sensors, and sensors are plagued by false alarms. We
recommended that CBP improve the effectiveness of remote surveillance technology.20

Maintaining a systems approach to addressing the challenge of securing our borders will
be a major challenge as the SBI focus shifts to the DHS components’ implementation of
the various plans comprising SBI. The major planned efforts under SBI are led by the
three lead components for immigration and border security.



19
   DHS-OIG, An Assessment of the Proposal to Merge Customs and Border Protection with Immigration 

and Customs Enforcement, OIG-06-04, November 2005. 

20
   DHS-OIG, A Review of Remote Surveillance Technology Along U.S. Land Borders, OIG-06-15,

December 2005. 



Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report           16
   • 	 ICE leads plans to improve the apprehension, detention, and removal of illegal
       aliens, and to expand worksite enforcement. Improvements in alien detention and
       removal efforts require coordinated efforts across DHS and collaboration with the
       Department of Justice and other agencies sharing responsibility for this function.

   • 	 CIS leads plans for a temporary guest worker program; streamlining immigration
       benefits processes; and expanding the employment verification program. CIS
       plans focus on automating and improving processes to (1) increase
       efficiency,(2) alleviate chronic backlogs in benefit application processing and
       adjudications, and (3) handle anticipated increases in applicants under proposed
       expanded guest worker initiatives.

   • 	 CBP leads a major investment program to gain control of the borders called
       SBInet. The SBInet objective is to develop solutions to manage, control, and
       secure the borders using a mix of technology, infrastructure, personnel, and
       processes. While SBInet is a new program, it replaces two previous efforts to
       gain control of the borders: the Integrated Surveillance Intelligence System (ISIS)
       and the America’s Shield Initiative (ASI). CBP awarded a multiple year systems
       integration contract in September 2006 to begin the SBInet multi-billion dollar
       initiative.

We have monitored the initiation of the SBInet program and provided a risk advisory
with recommendations to address observed weaknesses in the program. The SBI
procurement presents a considerable acquisition risk because of its size and scope.

Our main concern about SBInet is that DHS is embarking on this multi-billion dollar
acquisition project without having laid the foundation to effectively oversee and assess
contractor performance and effectively control cost and schedule. DHS has not properly
defined, validated, and stabilized operational requirements and needs to do so quickly to
avoid rework of the contractor’s systems engineering and the attendant waste of resources
and delay in implementation. Moreover, until the operational and contract requirements
are firm, effective performance management and cost and schedule control is precluded.
DHS also needs to move quickly to establish the organizational capacity to properly
oversee, manage, and execute the program.

Other DHS components share border security responsibilities and are necessarily part of a
comprehensive solution to border and immigration control. For example, the US-VISIT
Program is responsible for developing and fielding DHS’s entry-exit system. It also
coordinates the integration of two fingerprint systems: DHS’s Automated Biometric
Identification System and the Federal Bureau of Investigation’s Integrated Automated
Fingerprint Identification System. While US-VISIT has some early accomplishments,
the tracking of foreign visitors and immigrants still has weaknesses, especially on exit,
that should be addressed under a systems approach.



Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report   17
DHS also needs to address other weaknesses as part of the comprehensive solution to
immigration and border control. For example, CBP needs to fuse the intelligence
gathered with intelligence requirements to accomplish its priority mission. The CBP
mission of preventing terrorists and terrorist weapons from entering the United States,
while facilitating the flow of legitimate trade and travel is critical. Differentiating the
two requires timely intelligence. The ability of CBP to gather intelligence information
and distribute it to field personnel has a direct effect on security at our borders. Border
security also depends on information about terrorists kept on various watch lists. The
watch lists are managed by several federal agencies. Those agencies and DHS need to
coordinate access to the lists to ensure valuable information flows through CBP to field
personnel on the line.

We will continue to maintain an aggressive oversight program for DHS’s border security
initiatives to ensure that DHS applies a systems approach and carries out the resultant
plans and programs in an economical, efficient, and effective manner.


TRANSPORTATION SECURITY

Aviation

The Aviation and Transportation Security Act (ATSA),21 enacted in response to the
events of September 11, 2001, mandated that TSA hire and train thousands of screeners
for the Nation’s 438 commercial airports by November 19, 2002. As a result, TSA
ultimately hired 45,000 screeners. Our undercover audits of screener performance
revealed that improvements are needed in the screening process to ensure that dangerous
prohibited items are not being carried into the sterile areas of heavily used airports and do
not enter the checked baggage system. Four areas caused most of the test failures and
were in need of improvement: training; equipment and technology; policy and
procedures; and management and supervision. TSA agreed with our conclusion that
significant improvements in screener performance will only be possible with the
introduction of new technology. Additionally, TSA has completed implementation of
most of our recommendations in these areas and is continuing to work on the remaining
recommendations. TSA has conducted several pilot programs at airports nationwide,
such as the explosive trace portal (ETP) and the explosive detection scanner to facilitate
enhanced screener performance.22 We plan to evaluate TSA’s performance in
implementing these technologies.

TSA has been largely successful in its effort to implement the ATSA requirement that all
checked bags be screened by explosives detection systems. However, improvements in

21
  P.L. 107-71. 

22
  DHS-OIG, Audit of Passenger and Baggage Screening Procedures at Domestic Airports, OIG-04-37,

September 2004, and DHS-OIG, Follow-up Audit of Passenger and Baggage Screening Procedures at

Domestic Airports (Unclassified Summary), OIG-05-16, March 2005. 



Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report             18
screening passengers and their carry-on bags for explosives require additional work. For
example, piloting of whole-body scanners – backscatter x-ray machines – at U.S. airports
has been delayed until FY 2007. The only recent technology deployed to augment
traditional passenger screening is ETP, which can detect explosive residue on passengers’
bodies and clothing. Currently, TSA has deployed 94 ETPs at 37 different U.S. airports.
However, on September 3, 2006, TSA’s Chief Technology Officer said that some
unanticipated ETP problems have temporarily halted deployment. TSA continues to
solicit industry to submit technologies for evaluation and possible use in passenger and
baggage screening. TSA recently issued requests for information soliciting
manufacturers of commercially available whole-body imaging and advanced x-ray
technologies to submit their technologies for evaluation.

Rail And Mass Transit

Passenger rail transit, bus, and ferry systems are extremely vulnerable to terrorist attack
as evidenced by the attacks on passenger rail facilities in Madrid, London, and India.
Surface transportation modes in the United States are inherently difficult to secure
because of their open accessibility (typically, many entry and exit points), high ridership
(nearly 9 billion transit trips per year on buses and subways), and extensive infrastructure
(160,000 miles of interstate highway and other major roads included in approximately
3.8 million miles of roads nationwide, and more than 600,000 bridges and tunnels).
About 500 bridges and tunnels have been identified as playing key economic or traffic
handling roles, and, therefore, are potential terrorist targets. Although the FY 2007 DHS
Appropriations Act provides $175 million for rail and public transit safety — an increase
of $25 million over FY 2006 – the primary focus for transportation security and the
accompanying resources continues to tilt heavily toward aviation security.

DHS has recently begun work in this area. Through the National Infrastructure
Protection Plan (NIPP), DHS has established a forum and process to enhance
coordination among federal, state, and local government entities for the communication
and exchange of information. In one initiative to address vulnerabilities in surface transit
modes, TSA led the formation of the Transportation Sector Government Coordination
Council, which called for establishment of coordinating councils in each transportation
mode. TSA leads a council, which includes the Department of Transportation (the
Federal Transit Administration and the Federal Railroad Administration), created in
March 2006 for transit and commuter and long-distance rail. This council’s objective is
to facilitate regional engagement and bring together federal, state, and local government
partners and regional mass transit stakeholders in efforts to enhance security through
consistent and effective security strategies and programs.

While the majority of mass transit systems in the nation are owned and operated by state
and local governments and private industry, securing these systems is a shared
responsibility between federal, state, and local partners. DHS has made millions of
dollars available through the Transportation Security Grant Program, Homeland Security


Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report    19
Grant Program, Highway Watch Program, Urban Area Security Initiative, and other
funding methods. DHS also trains and deploys manpower for high-risk areas through the
Multi-Modal Security Enhancement Teams and Surface Transportation Security
Inspection Program Inspectors; and develops and tests new technologies, such as more
effective chemical and explosive detection equipment, mobile security checkpoints, and
video surveillance systems. Nevertheless, the task of prioritizing and securing surface
transportation is daunting. While TSA, its government partners, and industry owners and
operators have increased their vigilance, more robust information exchange, threat
detection, and preparedness measures must be undertaken to ensure the security and
resilience of the surface transportation system.


TRADE OPERATIONS AND SECURITY

Trade operations and security is primarily the responsibility of CBP, although USCG and
ICE also play important support roles. CBP has the counterbalancing missions of
facilitating legitimate trade and enforcing the laws associated with trade or border
controls. CBP has the challenge of interdicting smuggling and stopping other illegal
activities that benefit terrorists and their supporters. In a typical year, CBP processes
millions of sea containers; semi-tractor trailers; rail cars; and tons of bulk cargo and
liquids; such as chemicals, crude oil, and petroleum products. CBP also processes or
reviews all of the personnel associated with moving this cargo across U.S. borders or to
U.S. seaports.

CBP has implemented a number of initiatives to accomplish this objective such as the
Container Security Initiative (CSI), and Customs-Trade Partnership Against Terrorism
(C-TPAT). CSI works with foreign allies and partners to screen and examine
containerized cargo at overseas ports before it is loaded on ships bound for the U.S. The
initiative calls for the increased use of non-intrusive technology to inspect this cargo both
overseas and at U.S. ports. Within C-TPAT, CBP works with the trade to develop and
implement processes and systems to help secure the supply chain. CBP uses targeting
systems to assist in identifying the highest risk cargo on which to focus its limited
resources. Other initiatives include developing a “smart” container that will provide
extra protection or warning of tampering or intrusion. In support of its trade mission,
CBP is undertaking an extensive and long-term effort to develop a new system,
Automated Commercial Environment, to replace older, less effective, and less capable
trade processing systems. This effort is not scheduled to be fully competed until 2011,
and will cost more than $3.3 billion dollars.

The Automated Targeting System (ATS) helps CBP identify high-risk cargo for
inspection. In 2005, we reported concerns about the data to which ATS targeting rules
are applied, the use of examination results to refine ATS targeting rules, and physical




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report    20
controls over cargo containers targeted for examination.23 Ongoing reviews will provide
further recommendations about the use of intelligence, the development of performance
measures, cargo inspection, training, and control and inspection of high-risk sea
containers.

USCG is the lead DHS agency for maritime homeland security, and is responsible for
developing and implementing a comprehensive National Maritime Transportation
Security Plan to deter and respond to transportation security incidents. The marine areas
under U.S. jurisdiction cover 3.5 million square miles of ocean, 95,000 miles of coastline,
and 26,000 miles of commercial waters serving 361 domestic ports. These activities
account for two billion tons and $800 billion of domestic and international freight
annually. Approximately 8,000 foreign vessels, manned by 200,000 foreign sailors,
make more than 50,000 ship visits to U.S. ports each year. This too is a daunting
management challenge.

To implement the Maritime Transportation Security Act of 2002 in a timely and effective
manner, USCG must balance the resources devoted to the performance of homeland and
non-homeland security missions; improve the performance of its homeland security
missions; maintain and re-capitalize USCG’s Deepwater fleet of aircraft, cutters, and
small boats; restore the readiness of small boat stations to perform their search and rescue
missions; and increase the number and quality of resource hours devoted to non-
homeland security missions. For example, while overall resource hours devoted to
USCG’s homeland security missions grew steadily from FY 2001 through FY 2005,24
USCG continues to experience difficulty meeting its performance goals for homeland
security missions.25




23
   DHS-OIG, Audit of Targeting Oceangoing Cargo Containers, OIG-05-26, July 2005. 

24
   FY 2001 through FY 2005. 

25
   DHS-OIG, Annual Review of Mission Performance, United States Coast Guard (FY 2005), OIG-06-50,

July 2006. 





Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report          21
The following provides specific responses to those issues raised by the Inspector
General’s (IG) statement on the top management challenges facing the Department.




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report   22 

Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report   23
Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report   24
Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report   25
Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report   26
Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report   27
Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report   28
Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report   29
Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report   30
Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report   31
Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report   32
Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report   33
Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report   34
Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report   35
Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report   36
Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report   37
Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report   38
Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report   39
Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report   40
Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report   41
Appendix A
Report Distribution


       Department of Homeland Security

       Secretary
       Deputy Secretary
       Executive Secretariat
       Chief of Staff
       Deputy Chief of Staff
       General Counsel
       Under Secretary Management
       Assistant Secretary for Public Affairs
       Assistant Secretary for Policy
       Assistant Secretary for Legislative and Intergovernmental Affairs
       Chief Financial Officer
       Chief Information Officer
       Chief Security Officer
       Chief Privacy Officer

       Office of Management and Budget

       Chief, Homeland Security Branch 

       DHS’OIG Program Examiner 


       Congress

       Congressional Oversight and Appropriations Committees, as appropriate




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report   42
 Additional Information and Copies

 To obtain additional copies of this report, call the Office of Inspector General (OIG) at
 (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
 www.dhs.gov/oig.


 OIG Hotline

 To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
 or noncriminal misconduct relative to department programs or operations, call the
 OIG Hotline at 1-800-323-8603; write to DHS Office of Inspector General/MAIL
 STOP 2600, Attention: Office of Investigations - Hotline, 245 Murray Drive, SW,
 Building 410, Washington, DC 20528, fax the complaint to (202) 254-4292; or email
 DHSOIGHOTLINE@dhs.gov. The OIG seeks to protect the identity of each writer
 and caller.




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report   43
